                         U.S. Department of Agriculture

                            Office of Inspector General
                                     Southwest Region




              Audit Report




       Food and Nutrition Service
Accountability and Oversight of the National
         School Lunch Program
                 in Texas




                                 Report No. 27010-5-Te
                                         January 2004
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                       OFFICE OF INSPECTOR GENERAL
                                            Southwest Region - Audit
                                         101 South Main Street, Suite 324
                                              Temple, Texas 76501
                                      TEL: 254-743-6565 FAX: 254-298-1373


DATE:          January 23, 2004

REPLY TO
ATTN OF:      27010-5-Te

SUBJECT:      Accountability and Oversight of the National School Lunch Program in Texas

TO:           William Ludwig
              Regional Administrator
              Food and Nutrition Service
              1100 Commerce Street, Room 5-A-6
              Dallas, TX 75242

ATTN:         Ronald Rhodes
              Regional Director
              Special Nutrition Programs


This report presents the results of the subject audit. Your response to the official draft report, dated
December 30, 2003, is included in its entirety as exhibit A with excerpts and the Office of Inspector
General’s (OIG) position incorporated into the Findings and Recommendations section of the report.

Based on the response, management decisions have not been reached for any of the recommendations.
The information needed to reach management decisions is set forth in the OIG Position section after each
recommendation. In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the corrective action taken or planned and the timeframes for implementation for those
recommendations for which a management decision has not yet been reached. Please note that the
regulation requires management decisions to be reached for all recommendations within a maximum of
6 months from the date of report issuance. Final action on the management decisions should be
completed within 1 year of the date of the management decisions to preclude being listed in the
Department’s annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during the audit. If
you have any questions, please call me at 254-743-6565, or have a member of your staff contact Amy
McCormack, Assistant Regional Inspector General, at 254-743-6566.



/s/ T. R. Milliken
TIMOTHY R. MILLIKEN
Regional Inspector General
  for Audit
Executive Summary
Food and Nutrition Service, Accountability and Oversight of the National School Lunch
Program (Audit Report No. 27010-5-Te)

Results in Brief                        This report presents the results of our audit of the National School Lunch
                                        and Breakfast Programs as administered by the Food and Nutrition Service
                                        Regional Office, the Texas Education Agency, and the Texas Department of
                                        Human Services (TDHS). The purposes of the school lunch and breakfast
                                        programs are to provide nutritionally balanced, low-cost or free meals to
                                        schoolchildren that will encourage better eating habits. The objectives of our
                                        audit were to evaluate Food and Nutrition Service’s and the State agency’s
                                        controls over the administration of the National School Lunch and Breakfast
                                        Programs. We found deficiencies at TDHS with the administrative controls
                                        over the single audit tracking system and the administrative review process.

                                        In fiscal year 2001, TDHS did not properly maintain the single audit
                                        tracking system to account for the $16 million of school lunch and breakfast
                                        funding disbursed to their 231 subrecipients, or school food authorities. The
                                        responsible official did not consistently enter information into the single
                                        audit tracking system, although all school food authorities submitted the
                                        proper documentation. As a result, the tracking system did not account for
                                        $11.5 million disbursed to 187 of 231 subrecipients.

                                        In addition, TDHS’ administrative review process did not adequately
                                        identify internal control weaknesses within the school food authorities. This
                                        was because the officials did not use all available information to conduct
                                        administrative reviews nor did supervisory personnel provide the officials
                                        with adequate oversight. As a result, there were potentially 1001 school food
                                        authorities not following program regulations and not properly safeguarding
                                        program funds.

                                        We found no material deficiencies at the Food and Nutrition Service’s (FNS)
                                        Regional Office, TDHS, or the Texas Education Agency that would warrant
                                        further audit coverage or corrective action at this time.

Recommendations
In Brief
                                        We recommend that TDHS determine and document the amount of all
                                        Federal funding that participating institutions have received to enable them
                                        to confirm which institutions are required to obtain a single audit2 for
                                        the current and past years. Furthermore, TDHS needs to comply with



1
    There were 40 school food authorities from the Austin Area Office and 60 from the San Antonio Area Office.
2
    Single audit is an audit that includes the entity’s financial statements and Federal awards.

USDA/OIG-A/27010-5-Te                                                                                            Page i
                    previously established corrective action plans specified by the Texas State
                    Auditor’s Office. Lastly, TDHS must provide adequate training to
                    employees performing administrative reviews and develop a process to
                    perform analyses of such reviews at each area office.

Agency Response     In a letter dated December 30, 2003, FNS generally agreed with the findings
                    and recommendations in our report. (See exhibit A.) However, FNS did not
                    agree with Recommendations Nos. 5 and 6. Specifically, FNS stated that
                    TDHS should not be required to develop additional monitoring programs for
                    subrecipients just because they are State agencies subject to the Statewide
                    audit. Further, FNS stated that the State audit agency can confirm on a
                    one-time basis that the four State agencies, or all State agencies, are covered
                    by the Statewide audit. To require individual State-agency confirmation
                    would appear to be unnecessary.

OIG Position        We need additional information to reach management decisions for all of the
                    recommendations. The conditions needed to reach management decision are
                    set forth in the Findings and Recommendations section of the report.




USDA/OIG-A/27010-5-Te                                                                      Page ii
Abbreviations Used in This Report


CFR                  Code of Federal Regulations
FNS                  Food and Nutrition Service
FY                   Fiscal Year
NSLP                 National School Lunch Program
OIG                  Office of Inspector General
OMB                  Office of Management and Budget
SBP                  School Breakfast Program
SFA                  School Food Authority
TDHS                 Texas Department of Human Services




USDA/OIG-A/27010-5-Te                                     Page iii
Table of Contents

Executive Summary .................................................................................................................................i


Abbreviations Used in This Report ......................................................................................................iii


Background and Objectives ................................................................................................................... 1


Findings and Recommendations............................................................................................................ 3


    Section 1. TDHS Did Not Provide Adequate Oversight of SFA ................................................. 3

        Finding 1             TDHS Did Not Ensure SFAs Were In Compliance With Single Audit
                              Requirements........................................................................................................... 3
                                 Recommendation No. 1.................................................................................... 6
                                 Recommendation No. 2.................................................................................... 7
                                 Recommendation No. 3.................................................................................... 7
                                 Recommendation No. 4.................................................................................... 7
                                 Recommendation No. 5.................................................................................... 8
                                 Recommendation No. 6.................................................................................... 9
        Finding 2             Administrative Reviews Provided Inadequate Oversight .................................... 10
                                 Recommendation No. 7.................................................................................. 12
                                 Recommendation No. 8.................................................................................. 13

Scope and Methodology........................................................................................................................ 14

Exhibit A – Agency Response .............................................................................................................. 15




USDA/OIG-A/27010-5-Te                                                                                                                       Page iv
Background and Objectives
Background          On June 4, 1946, Congress passed the National School Lunch Act
                    (42 U.S.C. 1751), now the Richard B. Russell National School Lunch Act, as
                    amended December 29, 2001, authorizing Federal assistance to the States in
                    the establishment, maintenance, and operation of school lunch programs.
                    The Act established the National School Lunch Program (NSLP) to
                    safeguard the health and well-being of the Nation’s children and to
                    encourage the domestic consumption of nutritious agricultural commodities.
                    The program provides Federal assistance to help public or nonprofit private
                    schools of high school grade or under, as well as public or nonprofit private
                    residential childcare institutions that serve nutritious lunches to children.

                    The Act, as amended, authorizes the payment of general and special cash
                    assistance funds to States based upon the number and category of lunches
                    served. Section 4 of the Act authorizes general cash assistance payments for
                    all lunches served to children in accordance with the provisions of the
                    NSLP, and additional special cash assistance for lunches served under the
                    NSLP to children determined eligible for free or reduced-price lunches. The
                    States are reimbursed at various rates per lunch, depending on whether the
                    child was served a free, reduced-price, or full-price (paid) lunch. Eligibility
                    of children for free or reduced-price lunches is based upon their family’s
                    household size and income, as listed in FNS’ Income Eligibility Guidelines,
                    which are reviewed annually.

                    The NSLP is promulgated primarily through Title 7, Code of Federal
                    Regulations (CFR), part 210, National School Lunch Program, and part 220,
                    School Breakfast Program (SBP). Other regulatory requirements include
                    Title 7, CFR, part 245, Determining Eligibility for Free and Reduced-Price
                    Meals and Free Milk in Schools; part 3016, Uniform Administrative
                    Requirements for Grants and Cooperative Agreements; and part 3019,
                    Uniform Administrative Requirements for Grants and Agreements with
                    Institutions of Higher Education, Hospitals and Other Non-Profit
                    Organizations, establishing uniform administrative requirements for Federal
                    grants and agreements.

                    Through the FNS National Office, headquartered in Alexandria, Virginia,
                    the seven regional offices administer the NSLP and provide technical
                    assistance to the States. The FNS Regional Offices monitor the States in
                    their region by conducting management evaluations; also, they directly
                    administer the programs in some private schools. The regional offices also
                    monitor and control the flow of Federal funds to the States through a review
                    of reports which detail the financial expenditures of the States and the
                    number of free, reduced-price, and paid meals served.



USDA/OIG-A/27010-5-Te                                                                       Page 1
                    The NSLP is usually administered through a State’s Department of
                    Education that has the responsibility for administration of the NSLP. In the
                    State of Texas, two agencies, the Texas Department of Agriculture and the
                    TDHS, administer the program. The administration of the program was
                    moved from the Texas Education Agency to the Texas Department of
                    Agriculture in July 2003. The Texas Department of Agriculture administers
                    charter and public schools, while TDHS administers the private schools and
                    residential childcare institutions. This audit concentrated on the
                    FNS Regional Office, Texas Education Agency, and TDHS' administration
                    of the NSLP.

                    The State agency is required to enter into a written agreement with FNS for
                    the administration of the NSLP Statewide, and written agreements with the
                    school food authorities (SFA) for local administration. The State agency is
                    also required to perform administrative reviews covering both critical and
                    general areas that include, but are not limited to, meal claims, eligibility
                    determinations, and use of program funds. A coordinated review effort and
                    a review of compliance with nutrition standards are conducted at each
                    SFA. FNS Regional Office personnel may participate in these reviews.
                    SFAs are responsible for the administration of the program at the local
                    school district level. Individual schools are responsible for the onsite
                    operation of the NSLP, including the implementation of adequate meal
                    accountability systems and the review and approval of student applications
                    for free and reduced-price meals. The State agency and the SFAs are
                    responsible for reviewing the monthly meal claims to ensure that the number
                    of meals claimed is limited to the number of approved students in each
                    category, adjusted to reflect the average daily attendance.

                    The fiscal year (FY) 2002 funding for the NSLP was $5.8 billion for meal
                    reimbursements of approximately 6 billion lunches. The FY 2003 estimated
                    funding is $6 billion in meal reimbursements. For the school year
                    2001/2002, the State of Texas had an NSLP enrollment of 4.2 million and
                    reimbursements of $800 million.

  Objectives        The objectives of our audit were to evaluate FNS’ and the State agency’s
                    controls over the administration of the NSLP and SBP. We evaluated
                    FNS’ policies and procedures over meal accountability, the student
                    eligibility process, and agency oversight of program operations.
                    Specifically, we reviewed the procedures for the (1) accuracy of collections
                    and accounting for reimbursed meals, (2) accounting and use of program
                    funds relating to the SFA’s procurement of goods and services, and
                    (3) overall student eligibility process, with a focus on schools that elected to
                    implement alternate eligibility determinations.




USDA/OIG-A/27010-5-Te                                                                       Page 2
Findings and Recommendations
Section 1.   TDHS Did Not Provide Adequate Oversight of SFA

                      TDHS has two types of nonprofit institutions, private schools and residential
                      childcare institutions. In FY 2001, TDHS disbursed approximately
                      $170 million in special nutrition funds to subrecipients. Of the $170 million,
                      $16 million was disbursed for the school lunch and breakfast programs to
                      231 subrecipients, or SFAs that participated in the programs. To monitor the
                      SFAs’ activities, TDHS tracks the Federal funds and performs an
                      administrative review once every 5 years for each SFA.

                      We found that TDHS did not track all relevant Federal financial assistance
                      data for all 231 SFAs or provide adequate oversight during the
                      administrative review process.


Finding 1             TDHS Did Not Ensure SFAs Were In Compliance With Single
                      Audit Requirements

                      A TDHS official did not properly maintain the single audit tracking system
                      to account for all Federal funding disbursed to the SFAs. The responsible
                      official did not consistently enter information into the tracking system even
                      though current single audit documentation for all SFAs was received.
                      Generally, the official entered information from subrecipients that
                      previously submitted audits, voluntarily submitted the audit, or met the
                      monetary threshold in previous years. Therefore, TDHS could not reliably
                      determine which subrecipients were required to be audited, and the tracking
                      system did not account for $11.5 million disbursed to 187 of
                      231 subrecipients.

                      TDHS implemented the tracking system to compile subrecipients’ Federal
                      funding to determine when a single audit is required. However, in multiple
                      Statewide audits, the Texas State Auditor’s Office found weaknesses in
                      TDHS’ internal control structure. The weaknesses were first identified in
                      1994.

                      In the 1995 Texas Statewide Single Audit, the State auditor found that the
                      single audit tracking system did not accurately determine or record “audit due
                      dates.” It further stated that the inaccurate information in the tracking system
                      resulted in delinquent audit reports that prevented TDHS from properly
                      tracking subrecipients’ Federal funding, and resulted in questioned costs.




USDA/OIG-A/27010-5-Te                                                                         Page 3
                                     In 1996, the State auditor concluded that the single audit tracking system
                                     was not capturing all relevant Federal financial assistance data. This was
                                     because the information on the Form 1569, Single Audit Identification Data,
                                     was not accurately entered into the system. The State Auditor’s Office
                                     recommended TDHS correct the deficiencies in the tracking system by
                                     correctly entering data documented on the form 1569.

                                     The State auditor found that corrective action had been taken in 1997 and has
                                     currently not disclosed any other deficiencies. However, during our review of
                                     TDHS’ internal control structure, we found that it did not track or monitor all
                                     Federal funding distributed to the SFAs. Furthermore, the data that was
                                     tracked in the system was found to be incomplete and inaccurate. Thus,
                                     TDHS was unable to determine when a single audit was required.

                                     Federal and State guidelines3 require non-Federal entities that either expend a
                                     minimum of $300,000 in Federal awards or have a financial statement audit
                                     performed annually to have a single audit conducted for that year.
                                     Furthermore, Federal regulations4 require the pass-through entities,5 in this
                                     case TDHS, to continually monitor their subrecipients for compliance with
                                     single audit requirements.

                                     To provide certification of single audit compliance, the SFA must submit a
                                     form 1569 every year when applying for the school lunch and breakfast
                                     programs. The form 1569 provides documentation of the source(s) and
                                     amount(s) of Federal funding the SFA expends other than from TDHS.
                                     However, if the SFA did not disclose any other Federal funding on the form,
                                     the responsible official presumed none had been received, rather than request
                                     additional information.

                                     The data from the form 1569 is entered in the tracking system at one time.
                                     During the data entry process, the audit due date and notification letter dates
                                     are determined. According to Federal guidelines,6 audit due dates are to be
                                     the last day of the ninth month following SFAs’ fiscal yearend, unless a longer
                                     period of time is agreed upon in advance. Notification letters are to be sent
                                     out twice before the audit due date. The first letter is to notify the SFA of
                                     when the audit is due and should be received no later than 3 months prior to
                                     the audit due date. The second letter is to notify the SFA that its contract will
                                     be terminated until the single audit is received. This letter should be received
                                     no later than 30 days prior to the audit due date.




3
  The Office of Management and Budget (OMB) Circular A-133, subpart B, subsection .200(a), revised June 24, 1997; the Single Audit Act Amendment
of 1996; and TDHS Audit Procedures.
4
  Title 7, CFR, part 3052, section .230, revised as of January 1, 2000.
5
  Pass-through entity is defined as a non-Federal entity that provides a Federal award to a subrecipient to carry out a Federal program.
6
  OMB Circular A-133, subpart C, subsection .320(a), revised June 24, 1997.

USDA/OIG-A/27010-5-Te                                                                                                                   Page 4
                                     However, we found that TDHS had only entered single audit information for
                                     447 of the 231 SFAs; thus, the source of funding was not tracked for
                                     187 SFAs, leaving over $11.5 million of $16 million not tracked.

                                     Our analysis of the 44 SFAs that were entered in the single audit tracking
                                     system disclosed the following:

                                        • 20 showed monetary amounts that deviated from the documentation on the
                                          form 1569;
                                        • 10 submitted a form 1569 with an undeterminable amount of Federal
                                          funding;
                                        • 12 had an alternate fiscal yearend when compared to the form 1569;
                                        • 6 had incorrect audit due dates;
                                        • 13 were issued notification letters on dates inconsistent with program
                                          regulation; and
                                        • 5 did not have notification dates recorded, thus no audit notification letters
                                          were issued.

                                     The responsible official stated that the SFAs’ fiscal yearend dates were based
                                     on prior year information. Additionally, the official did not follow Federal or
                                     State guidelines resulting in the data entry of erroneous information.

                                     Federal regulations8 require proper monitoring of the programs funds.
                                     TDHS is given the option to find procedures that best meet its monitoring
                                     needs. However, OMB expects pass-through agencies to consider various
                                     risk factors while developing the monitoring procedures, such as relative
                                     size and complexity of the Federal awards.

                                     During FY 2001, TDHS disbursed, but did not track, over $7 million of
                                     the school lunch and breakfast funds to four State agencies9 acting as
                                     SFAs. The four SFAs are continually included in the Texas Statewide
                                     Single Audit, meeting their compliance with single audit requirements.
                                     However, because of these SFAs’ involvement in the Statewide audit,
                                     TDHS only monitors their program compliance during administrative
                                     reviews that are conducted once every 5 years. TDHS also did not consider
                                     various risk factors for additional oversight. As a result, over $7 million of
                                     the $11.5 million untracked school lunch and breakfast funds are repeatedly
                                     not physically audited. (See finding 2.)




7
  Of the 44 SFAs, 4 were later exempted from submitting a single audit.
8
  Title 7,CFR, part 3052, section .230, revised as of January 1, 2000.
9
  Texas Youth Commission, Texas School for the Deaf, Texas School for the Blind and Visually Impaired, and the Texas Department of Mental Health
and Mental Retardation.

USDA/OIG-A/27010-5-Te                                                                                                                     Page 5
Recommendation No. 1

                                        Require TDHS to document the amount of Federal funding that participating
                                        institutions have received, determine which institutions are required to
                                        obtain a single audit, and properly monitor the $11,555,787 in untracked
                                        school lunch and breakfast funds for FY 2001.

                                        Agency Response. FNS concurs with the recommendation; however,
                                        FNS recommended that the dollar amount be reduced from over
                                        $11.5 million to $4.5 million based on the coverage of over $7 million cited
                                        under the Statewide audit of the four State agencies operating special
                                        nutrition programs.

                                        OIG Position. We cannot accept the FNS management decision. We
                                        disagree that the amount of untracked school lunch and breakfast funds be
                                        reduced from $11,555,787 to $4.5 million. Having funds included in a
                                        Statewide audit only fulfills the subrecipient’s responsibility of having the
                                        single audit actually conducted. It does not exempt the State agency from its
                                        responsibilities of monitoring the funds they disbursed. We found no
                                        regulations or guidelines that would grant the pass-through entity, in this
                                        case the State agency, an exemption to not track a subrecipient’s funds based
                                        on who conducted the audit.

                                        According to the OMB response to the 1996 revision of Circular A-133,
                                        pass-through entities are held accountable for Federal awards administered
                                        by their subrecipients. Furthermore, Departmental regulation10 states that all
                                        agencies and staff offices are to improve the accountability and effectiveness
                                        of the United States Department of Agriculture’s programs and operations
                                        through the use of sound systems of internal and management controls, and
                                        to ensure that programs are to be managed with integrity and that program
                                        operations comply with the applicable laws and regulations. We can reach
                                        management decision when FNS provides us with documentation showing
                                        the specific corrective action to be taken, and the timeframe within which
                                        the corrective action will be completed.




10
     Departmental Regulation 1110-2, dated February 23, 1999.

USDA/OIG-A/27010-5-Te                                                                                          Page 6
Recommendation No. 2

                    Require TDHS to determine if FY 2002 required audits had been performed
                    and to provide the necessary followup.

                    Agency Response. FNS concurs with the recommendation.

                    OIG Position. We cannot accept the FNS management decision. We can
                    reach management decision when FNS provides us with documentation
                    showing the specific corrective action to be taken, and the timeframe within
                    which the corrective action will be completed.

Recommendation No. 3

                    Require TDHS to ensure that all single audit documentation is entered into
                    the single audit tracking system and that required audits, along with all
                    necessary documentation and followups, are performed for FY 2003.

                    Agency Response. FNS concurs with the recommendation.

                    OIG Position. We cannot accept the FNS management decision. We can
                    reach management decision when FNS provides us with documentation
                    showing the specific corrective action to be taken, and the timeframe within
                    which the corrective action will be completed.

Recommendation No. 4

                    Require TDHS to comply with previous        Texas Statewide Single Audit
                    corrective action plans by requesting        followup documentation for
                    incomplete, inaccurate, and/or variations   in current-year documentation
                    submitted by SFAs, including all Federal    and special nutrition programs
                    funding.

                    Agency Response. FNS concurs with the recommendation.

                    OIG Position. We cannot accept the FNS management decision. We can
                    reach management decision when FNS provides us with documentation
                    showing the specific corrective action to be taken, and the timeframe within
                    which the corrective action will be completed.




USDA/OIG-A/27010-5-Te                                                                    Page 7
Recommendation No. 5

                                       Require FNS and TDHS to work together to develop other means of
                                       monitoring program funds, including limited scope audits, and consider
                                       various risk factors for disbursements made to the four subrecipient State
                                       agencies.

                                       Agency Response. FNS did not concur with this recommendation.
                                       FNS stated that TDHS should not be required to develop additional
                                       monitoring programs for subrecipients just because they are State agencies
                                       subject to the Statewide audit. The regulations11 do not appear to provide for
                                       limited scope audits where there is a single audit. Further, TDHS should not
                                       be required to conduct monitoring or audits not required by the regulation or
                                       which are not required by any other State agency.

                                       OIG Position. We cannot accept the FNS management decision. We
                                       found that because of these four subrecipient State agencies’ involvement in
                                       the Statewide audit, TDHS only monitors its program compliance during
                                       administrative reviews that are conducted once every 5 years. However, we
                                       found that TDHS’ administrative review process does not adequately
                                       identify weaknesses for not only the State agencies but for all of their SFAs.
                                       (See finding 2.) According to FNS guidance12, pass-through entities are to
                                       consider various risk factors in developing subrecipient monitoring
                                       procedures, such as relative size and complexity of the Federal awards
                                       administered by the subrecipient, prior experience with each subrecipient,
                                       and the cost effectiveness of various monitoring procedures. Further,
                                       pass-through entities shall monitor the activities of subrecipients, as
                                       necessary, to ensure that Federal awards are used for authorized purposes in
                                       compliance with laws, regulations, and provisions of contracts or grant
                                       agreements and that performance goals are achieved.

                                       TDHS has not considered the various risk factors to develop proper
                                       monitoring procedures. The four State agencies received almost half of the
                                       total school lunch and breakfast outlays that TDHS disbursed in 2001 to its
                                       subrecipients. We question the extent to which the Texas Statewide Single
                                       Audit addresses these specific programs and agencies. FNS guidance12
                                       states a State agency must marshal its entire arsenal of monitoring resources
                                       and use them in ways that provide the most efficient, effective oversight of is
                                       subgrantees. The guidance defines monitoring resources to include limited
                                       scope audits, onsite reviews, and subgrantee data analysis.

                                       We gave limited scope audits as an example of an alternate monitoring
                                       resource for the four State agencies. Federal regulations13 do provide for

11
     Title 7, CFR, part 3052, section .230, revised as of January 1, 2000.
12
     Second Edition of Questions and Answers on OMB Circular A-133/Title 7, CFR, part 3052, dated March 1, 2001.
13
     Title 7, CFR, part 3052, section .230, revised as of January 1, 2000.

USDA/OIG-A/27010-5-Te                                                                                              Page 8
                                          limited scope audits where there is a single audit, but do not provide for
                                          pass-through entities charging Federal awards for the cost of limited scope
                                          audits where there is a single audit.

                                          We can reach management decision when FNS provides us with
                                          documentation showing the specific corrective action to be taken, and the
                                          timeframe within which the corrective action will be completed.

Recommendation No. 6

                                          Require TDHS to obtain written documentation of single audit compliance
                                          from the four State agencies that participate in the school lunch and
                                          breakfast programs. Consideration should be given to modifying the
                                          form 1569 to include certification of the agencies’ participation in the Texas
                                          Statewide Single Audit and/or obtain a letter from a State agency official
                                          declaring the agencies’ compliance with all single audit requirements.

                                          Agency Response. FNS did not concur with this recommendation.
                                          FNS stated that the State audit agency can confirm on a one-time basis that
                                          the four State agencies, or all State agencies, are covered by the Statewide
                                          audit. To require individual State-agency confirmation would appear to be
                                          unnecessary.

                                          OIG Position. We cannot accept the FNS management decision. We
                                          understand that the State audit agency can confirm on a one-time basis that
                                          the four State agencies, or all State agencies, are covered by the Statewide
                                          audit. However, according to Federal regulations,14 auditees that are also
                                          subrecipients shall submit to each pass-through entity one copy of the
                                          reporting package when the schedule of findings and questioned costs
                                          disclosed (1) audit findings relating to Federal awards that the pass-through
                                          entity provided or (2) the summary schedule of prior audit findings reported
                                          the status of any audit finding relating to Federal awards that the
                                          pass-through entity provided.

                                          Also, instead of submitting the reporting package to a pass-through entity,
                                          when a subrecipient is not required to submit a reporting package to a
                                          pass-through entity, the subrecipient shall provide written notification to the
                                          pass-through entity. The written notification should indicate that (1) an audit
                                          of the subrecipient was conducted in accordance with this part (including the
                                          period covered by the audit and the name, amount, and number of the
                                          Federal award(s) provided by the pass-through entity), (2) the schedule of
                                          findings and questioned costs disclosed no audit findings relating to the
                                          Federal award(s) that the pass-through entity provided, and (3) the summary
                                          schedule of prior findings did not report on the status of any audit findings
                                          relating to the Federal award(s) that the pass-through entity provided.
                                          Further, a subrecipient may submit a copy of the reporting package to the

14
     Title 7, CFR, part 3052, section 320 (c)-(e), revised as of January 1, 2000.

USDA/OIG-A/27010-5-Te                                                                                             Page 9
                                       pass-through entity to comply with this notification requirement. We can
                                       reach management decision when FNS provides us with documentation
                                       showing the specific corrective action to be taken, and the timeframe within
                                       which the corrective action will be completed.


     Finding 2                        Administrative Reviews Provided Inadequate Oversight

                                       TDHS’ administrative review process does not adequately identify
                                       weaknesses within the SFA. This is because TDHS officials did not use all
                                       available information to conduct administrative reviews (see listings on
                                       pages 11 and 12) nor did supervisory personnel provide the officials with
                                       adequate oversight. As a result, there were potentially 10015 SFAs not
                                       following program regulations and not properly safeguarding program funds.

                                       TDHS procedures16 require the eight area offices to conduct administrative
                                       reviews of SFAs participating in the school lunch and breakfast programs at
                                       least once every 5 years. Administrative reviews evaluate both critical and
                                       general areas that include, but are not limited to, meal claims, eligibility
                                       determinations, and use of program funds. Each area office provides their
                                       contract managers with administrative review packets. The review packets
                                       contain specific forms for each required area of review, critical and general.
                                       To properly perform the administrative review, contract managers are to
                                       complete the review packets by examining the SFA’s records and
                                       interviewing staff to determine if they are following program regulations.

                                       The TDHS had reviewed or scheduled an administrative review of all
                                       SFAs under each of the eight area offices during the 5-year review cycle,
                                       July 1998 to June 2003. We reviewed two of the eight area offices that
                                       conducted administrative reviews, the Austin and San Antonio Area Offices.

                                       During the 5-year review cycle, the San Antonio Area Office conducted
                                       76 administrative reviews and mandatory followups on 60 SFAs. The Austin
                                       Area Office conducted 58 administrative reviews and mandatory followups
                                       on 40 SFAs.

                                       At the Austin Area Office, we reviewed a sample of 19 administrative
                                       reviews and mandatory followups from FYs 2000 to 2003. The Austin Area
                                       Program Manager stated that after the administrative reviews were
                                       completed by the contract manager, findings letters were written. The area
                                       program manager would then compare the findings letters to the
                                       administrative review forms, making sure all findings had been documented.
                                       Even with this basic review by the Austin Area Program Manager, we found
                                       problems with three administrative reviews’ findings letters, including
                                       incorrect contract numbers and incorrect or missing dates.
15
     There were 40 SFAs from the Austin Area Office and 60 SFAs from the San Antonio Area Office.
16
     TDHS NSLP and SBP Handbook, chapter 5, Administrative Reviews and Audits, Administrative Review, dated June 1, 2002.

USDA/OIG-A/27010-5-Te                                                                                                       Page 10
                                       At the San Antonio Area Office, we reviewed a sample of 16 administrative
                                       reviews and mandatory followups from FYs 2000 to 2003. The San Antonio
                                       Area Program Manager only reviewed the findings letters that were sent to
                                       the SFA after the administrative review had been completed. However,
                                       temporary summer employees conducted a quality assurance review
                                       annually on a selected sample of administrative reviews performed. The
                                       temporary employees used a checklist to ensure the completeness of
                                       necessary administrative review forms and that performance standard
                                       thresholds had been properly met. Despite the basic review performed by
                                       the San Antonio Area Program Manager, we found problems with six of the
                                       administrative review forms and findings letters, including missing or
                                       incorrect dates and mislabeled information.

                                       We reviewed two SFAs from the San Antonio Area Office, which were
                                       chosen based on problems documented by the TDHS during the
                                       administrative review process and concerns raised regarding a food service
                                       management company. Our review found numerous weaknesses that were
                                       inconsistent with the State’s results.

                                       We found that the first SFA17

                                         • had no procurement procedures;
                                         • improperly awarded the food management contract to the same food
                                           service provider, 1998 through 2003; and
                                         • did not have internal controls in place to ensure the accuracy and
                                           eligibility of meals claimed for reimbursement or to verify that the
                                           reimbursement claims were prepared accurately.

                                       The administrative review for the first SFA was performed in October 2001
                                       and a followup was not required. The administrative review did not take
                                       issue with procurement procedures, food service management company
                                       contract, or eligibility of meals claimed. TDHS requested and accepted the
                                       SFA’s internal control procedures to ensure accurate meal counts.




17
     OIG Audit Report No. 27010-9-Te, issued October 2003.

USDA/OIG-A/27010-5-Te                                                                                    Page 11
                                       We found that the second SFA18

                                         • did not have adequate internal controls to ensure the accuracy of the
                                           reimbursement claims;
                                         • did not have accurate support for the number of meals claimed;
                                         • had no second-party reviews of the reimbursement claims to detect such
                                           errors;
                                         • did not comply with the competitive procurement regulations; and
                                         • had no separation of duties in the daily cafeteria operations that included
                                           collecting and recording the lunch money received, depositing the
                                           collections, conducting point-of-service meal counts, consolidating lunch
                                           counts for the reimbursement claims, plus writing and signing all checks
                                           including their own payroll check.

                                       The administrative review for the second SFA was conducted in
                                       December 1999, followed by a periodic review in January 2001. In response
                                       to the administrative review, the SFA was to implement internal controls to
                                       ensure that the meal counts for the reimbursement claims were accurate.
                                       The periodic review showed that internal controls were implemented and
                                       functioning properly.

                                       We concluded that TDHS’ administrative review process was not adequately
                                       conducted or supervised to reveal weaknesses. As a result, there is risk for
                                       potential mismanagement of the program and its funds by the SFAs.

Recommendation No. 7

                                       Require TDHS to provide all employees that are involved in the
                                       administrative review process training on how to properly perform the
                                       administrative reviews, including how to thoroughly complete each form.

                                       Agency Response. FNS concurs with the recommendation. FNS, at the
                                       request of TDHS, has conducted training for TDHS staff in the
                                       administrative review process several times in the past years.

                                       OIG Position. We cannot accept the FNS management decision. We can
                                       reach management decision when FNS provides us with documentation
                                       showing the specific corrective action to be taken, and the timeframe within
                                       which the corrective action will be completed.




18
     OIG Audit Report No. 27010-8-Te, issued September 2003.

USDA/OIG-A/27010-5-Te                                                                                        Page 12
Recommendation No. 8

                    Require TDHS, by school year 2004/2005, to develop a process that will
                    require officials with substantive program knowledge to perform detailed
                    analyses of administrative reviews at each area office, including examination
                    of written documentation of interviews, and complete explanations of
                    responses on each administrative review form.

                    Agency Response. FNS concurs with the recommendation. FNS added
                    that the TDHS Area Offices administer a large number of special nutrition
                    programs of which the NSLP and SBP are a small part.

                    OIG Response. We cannot accept the FNS management decision. We can
                    reach management decision when FNS provides us with documentation
                    showing the specific corrective action to be taken, and the timeframe within
                    which the corrective action will be completed.




USDA/OIG-A/27010-5-Te                                                                    Page 13
Scope and Methodology
                    Audit work was performed at the FNS Regional Office, the Texas Education
                    Agency, the TDHS State Office in Austin, Texas, and the TDHS Area Offices
                    in Austin and San Antonio, Texas. The two area offices were selected based
                    on proximity to TDHS’ State Office and issues raised regarding a food service
                    management company that contracted with an SFA from one of the area
                    offices. Our fieldwork was performed during the period of October 2002
                    through July 2003. The period covered by the audit included NSLP and
                    SBP operations for the 2002/2003 school year. We expanded our audit scope
                    to include FY 2001 because the deadlines for FY 2002 single audits had not
                    yet been reached. Audit reports were reviewed to document prior single audit
                    findings. For the administrative review analysis, OIG expanded the universe
                    to include the entire 5-year cycle, FYs 1998 through 2002.

                    The audit objectives were accomplished through

                        1. reviews of FNS’ regulations, policies, and procedures relating to the
                            NSLP and discussions with regional personnel regarding any concerns
                            they have with program operations;
                        2. auditor observations of the State agency’s records;
                        3. interviews with State agency administrative officials;
                        4. obtaining FYs 2001 through 2002 NSLP and SBP funding totals from
                            State agencies;
                        5. obtaining NSLP and SBP policies and regulations;
                        6. obtaining single audit regulations, OMB Circular A-133;
                        7. reviewing prior year audit reports regarding the State and their audit
                            findings;
                        8. examining various SFA single audit files for 2001;
                        9. conducting analysis of records, forms 1569, and single audit tracking
                            system printouts provided by the State;
                        10. reviewing samples of SFA administrative review files for
                            FYs 2000 to 2003 at the Austin and San Antonio Area Offices; and
                        11. interviews with SFA officials about administrative reviews.

                    The audit was conducted in accordance with Government Auditing
                    Standards issued by the Comptroller General of the United States.
                    Accordingly, the audit included such tests of program and accounting
                    records as considered necessary to meet the audit objectives.




USDA/OIG-A/27010-5-Te                                                                    Page 14
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 3




USDA/OIG-A/27010-5-Te                      Page 15
                        Exhibit A – Page 2 of 3




USDA/OIG-A/27010-5-Te                Page 16
                        Exhibit A – Page 3 of 3




USDA/OIG-A/27010-5-Te                Page 17
